September 30, 2002

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

SUBJECT: Audit Report –Team Enterprise Initiative
         (Report Number EM-AR-02-014)

This report presents the results of our review of the Team Enterprise Initiative (Project
Number 02BG011EM000). The self-initiated review was part of an on-going series of
audits to review systems during the systems development life cycle process. The
objectives of our audit were to: (1) assess the adequacy of Team Enterprise project
definition and planning, (2) evaluate whether Postal Service management clearly
defined requirements for applications supporting Team Enterprise, and (3) assess the
adequacy of the system development process for applications supporting Team
Enterprise.

The audit disclosed that functional requirements for applications designed to support
Team Enterprise were adequately defined. However, the Team Enterprise initiative was
not adequately defined. In addition, for one system under Team Enterprise, the Entry
Information System, system security requirements were not always followed, and the
approved systems development life cycle methodology was not always utilized. As a
result, the Postal Service has no assurance that all team members understood the
purpose and goals of Team Enterprise; application developers relied upon incomplete
documentation and could have designed security requirements for the wrong level of
sensitivity; and there is no assurance that the development of the Entry Information
System will meet all requirements, ensure participation by all stakeholders, and control
costs. Management’s comments and our evaluation of these comments are included in
this report.

This report made four recommendations addressing these issues. Management agreed
with two of the recommendations and has taken corrective actions addressing those
issues identified in the report. Management disagreed with the first finding and a
portion of the second finding and the related recommendations; however, additional
information provided by management as well as actions taken subsequent to the audit
address the concerns raised in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
director, eCommerce and Marketing, at (703) 248-2100 or me at (703) 248-2300.



Ronald D. Merryman
Acting, Assistant Inspector General
 for eBusiness

Attachment

cc: Carole D. Koehler
    George W. Wright
    James L. Golden
    Susan M. Duchek
Team Enterprise Initiative                                 EM-AR-02-014



                             TABLE OF CONTENTS
 Executive Summary                                               i

 Part I

 Introduction                                                   1

     Background                                                 1
     Objectives, Scope, and Methodology                         2
     Prior Audit Coverage                                       3

 Part II

 Audit Results                                                  4

     Project Definition                                         4
     Recommendation                                             5
     Management’s Comments                                      5
     Evaluation of Management’s Comments                        5

     Security Requirements                                      6
     Recommendations                                            7
     Management’s Comments                                      7
     Evaluation of Management’s Comments                        7

     System Development Process                                 9
     Audit Comment                                              9

 Appendix. Management’s Comments                               11




                                  Restricted Information
Team Enterprise Initiative                                                                         EM-AR-02-014



                                      EXECUTIVE SUMMARY
    Introduction                  There are five major stages in the systems development life
                                  cycle.1 Each stage has several process points that need to
                                  be accomplished to develop a successful project. This
                                  report presents our self-initiated audit of the Team
                                  Enterprise initiative and associated software development.
                                  This is the sixth report in a series of Office of Inspector
                                  General (OIG) audits of Postal Service initiatives in the early
                                  phases of development. By early involvement in the
                                  process, the OIG can make recommendations to resolve
                                  issues in development prior to system implementation.
                                  Studies indicated that it is up to 100 times more costly to
                                  make changes after a system is placed into production. Our
                                  objectives were to: (1) assess the adequacy of Team
                                  Enterprise project definition and planning, (2) evaluate
                                  whether Postal Service management clearly defined
                                  requirements for applications supporting Team Enterprise,
                                  and (3) assess the adequacy of the systems development
                                  process for applications supporting Team Enterprise.

    Results in Brief              Our review found that functional requirements for
                                  applications designed to support Team Enterprise were
                                  adequately defined. However, the Team Enterprise
                                  initiative was not adequately defined. In addition, for one
                                  system under Team Enterprise, the Entry Information
                                  System, system security requirements were not always
                                  followed, and the approved systems development life cycle
                                  methodology was not always utilized.

                                  These conditions occurred because Postal Service
                                  management believed they had adequately defined the
                                  initiative, however, the definition adopted by the project
                                  team and provided in program documentation was vague,
                                  subject to interpretation, and lacked specific goals for the
                                  initiative. In addition, Postal Service management did not
                                  realize they had not completed the business data section of
                                  the business impact assessment.

                                  As a result, the Postal Service has no assurance that all
                                  team members understood the purpose and goals of Team
                                  Enterprise. Furthermore, in the case of the Entry
                                  Information System, application developers relied upon
                                  incomplete documentation and could have designed

1
 A systems development life cycle is a logical process by which systems analysts, software engineers, programmers,
and end users build information systems and computer applications to solve business problems and needs.

                                                        i
                                             Restricted Information
Team Enterprise Initiative                                                     EM-AR-02-014



                             security requirements for the wrong level of sensitivity; and
                             there is no assurance that the development will meet all
                             requirements, ensure participation by key stakeholders, and
                             control costs.

 Summary of                  We made four recommendations to correct identified
 Recommendations             deficiencies that include ensuring: the scope of Team
                             Enterprise and associated goals are clearly defined and
                             documented, all security requirements are followed, and
                             system testing is completed. We did not make a specific
                             recommendation to address the use of an approved
                             systems development life cycle methodology, because
                             Postal Service management issued policy during the audit
                             to address this concern.

 Summary of                  Management disagreed with our first finding, a portion of the
 Management’s                second finding, and the associated recommendations. The
 Comments                    Postal Service believed Team Enterprise was adequately
                             defined and that the executive sponsor had been appointed.
                             Management agreed with the remaining findings and
                             recommendations and has implemented corrective actions
                             to address those recommendations. Management’s
                             comments, in their entirety, are included in the appendix of
                             this report.

 Overall Evaluation of       We disagree with management’s comments to the first
 Management’s                finding and part of the second finding. During audit
 Comments                    fieldwork, management provided inconsistent definitions for
                             Team Enterprise and could not provide details of the
                             programs. Also, the letter referenced in managements
                             comments neither specified that the manager was
                             designated as the executive sponsor, nor did it specify the
                             requirements of AS-805.

                             However, information provided by management
                             subsequent to the audit addressed the concerns over these
                             issues. Thus, management’s comments and additional
                             actions are responsive to satisfy the intent of our
                             recommendations.




                                                ii
                                     Restricted Information
Team Enterprise Initiative                                                                              EM-AR-02-014



                                         INTRODUCTION
    Background                      On May 18, 2001, senior Postal Service officials2 initiated a
                                    work team for the purpose of developing a fast track
                                    method, named Team Enterprise, to improve mail tracking
                                    to support service measurement. A cross-functional team
                                    was established to develop the approach for implementation
                                    by October 1, 2002. Team Enterprise is not a program in
                                    itself but rather an umbrella that covers a multitude of
                                    programs (see diagram below).

                                    At present, the Team Enterprise work team has developed a
                                    new application, Entry Information System (formerly called
                                    Start-The-Clock). The purpose of this system is to capture
                                    the date and time the Postal Service takes possession of
                                    mailings from business customers.

                                                          Team Enterprise Structure




                                    When our review took place, the Entry Information System
                                    was in the test phase and was placed in production on
                                    March 31, 2002. We reviewed both the requirements and
                                    testing phases of the program, as well as overall program
                                    management.




2
 Senior Postal Service officials include the postmaster general, chief operating officer and executive vice
president, and chief financial officer and executive vice president.

                                                      1
                                           Restricted Information
Team Enterprise Initiative                                                    EM-AR-02-014




 Objectives, Scope,          The objectives of our review of the Team Enterprise
 and Methodology             initiative were to: (1) assess the adequacy of Team
                             Enterprise project definition and planning, (2) evaluate
                             whether the Postal Service clearly defined requirements for
                             applications supporting the Team Enterprise initiative, and
                             (3) assess the adequacy of the systems development
                             process for applications supporting Team Enterprise.

                             To accomplish our objectives, we interviewed key project
                             personnel, including the executive sponsor, portfolio
                             manager, program manager, contracting officer
                             representative, and the information system security
                             representative. In addition, we interviewed operations
                             representatives under Postal Service Mailing Operations
                             staff – area coordinators. We also reviewed key
                             documentation related to requirements, planning, and
                             program management.

                             This audit was conducted from February through
                             September 2002 in accordance with generally accepted
                             government auditing standards and included tests of
                             internal controls as were considered necessary under the
                             circumstances. We did not rely on computer-generated




                                            2
                                 Restricted Information
Team Enterprise Initiative                                                       EM-AR-02-014




                             data to accomplish the objectives of this audit. We
                             discussed our conclusions and observations with
                             appropriate management officials and included their
                             comments, where appropriate.

 Prior Audit Coverage        We did not identify any prior audits or reviews related to the
                             objective of this audit.




                                             3
                                  Restricted Information
Team Enterprise Initiative                                                       EM-AR-02-014



                                AUDIT RESULTS
 Project Definition          Postal Service management did not clearly define the
                             purpose of the Team Enterprise initiative. Specifically,
                             project documentation contained conflicting definitions and
                             discussions with Postal Service management have yielded
                             project definitions different from those contained in program
                             documentation.

                             Industry best practices recommend that all large corporate
                             initiatives be clearly defined and planned. This includes
                             definition of goals, as well as tasks to accomplish these
                             goals.

                             The letter initiating Team Enterprise stated the purpose was
                             to establish a working team tasked to develop a fast track
                             method to improve mail tracking to support service
                             measurement, with a focus on Standard A letters/flats,
                             Parcel Select, and First-Class Priority Mail. However,
                             project documentation defined Team Enterprise as a
                             strategic initiative with the purpose to design, plan, and
                             support the deployment of cross-functional initiatives that
                             bring value to the Postal Service and its business mailers. It
                             further indicated these initiatives would include both tactical
                             and strategic efforts focusing on end-to-end accountability,
                             service measurement and performance management, mail
                             coding and tracking, collaborative planning and downstream
                             notification, and the enabling of revenue assurance and
                             auditing.

                             Further, during discussions with Postal Service
                             management, they stated Team Enterprise was not a
                             strategic initiative with specific goals, but rather a
                             mechanism to work cross-functional issues. Additionally,
                             although Postal Service management initially stated the
                             number of programs included in the Team Enterprise
                             initiative was 9 to 11, when asked to detail those programs,
                             they stated the number was unknown and they would work
                             issues as they were identified to the team.

                             Postal Service management believed they had adequately
                             defined the initiative; however, the definition adopted by the
                             project team and provided in program documentation was
                             vague, subject to interpretation, and lacked specific goals for
                             the initiative.



                                             4
                                  Restricted Information
Team Enterprise Initiative                                                       EM-AR-02-014



                             Clear project definition is necessary to guide the initiative,
                             document approval from executive sponsors, and ensure all
                             team members understand the purpose and goals of the
                             project. It also provides the basis for project planning, and
                             controls the scope of work to be performed.

 Recommendation              We recommend the senior vice president, chief technology
                             officer, ensure:

                                1. Program management clearly define and document
                                   the purpose and goals of the Team Enterprise
                                   initiative.

 Management’s                Management disagreed with our finding and
 Comments                    recommendation. Management commented that they
                             believed the goals and purposes of Team Enterprise are
                             adequately defined and documented. Along with their
                             comments management provided a power point
                             presentation that detailed the ten programs currently being
                             worked under Team Enterprise and stated that as business
                             needs are identified and budgets are refined, the number of
                             programs may change. They concluded this approach
                             accounts for the difference in the number of programs under
                             Team Enterprise at any given time.

 Evaluation of               We do not agree that management clearly defined and
 Management’s                documented the purpose and goals of Team Enterprise
 Comments                    during the audit but management provided additional
                             information that adequately addressed the issues we
                             identified. Consequently, management’s actions should
                             correct the problem or resolve the issues identified in this
                             report.




                                             5
                                  Restricted Information
Team Enterprise Initiative                                                      EM-AR-02-014




 Security                    Postal Service management did not ensure all Handbook
 Requirements                AS-805, Information Security, requirements for the Entry
                             Information System were fully completed.

                             Handbook AS-805, Information Security, requires the
                             completion of a business impact assessment for all new
                             applications (see Phase 1, definition below). This
                             assessment should be completed by the executive sponsor
                             or a representative designated in writing, and is used to
                             determine the sensitivity and criticality of the system. This
                             determination drives security requirements for the system.




                             The approved business impact assessment did not include
                             an assessment of the business data being used by the


                                             6
                                  Restricted Information
Team Enterprise Initiative                                                     EM-AR-02-014



                             system and was not signed by the executive sponsor or their
                             designated representative. Specifically, a review of the
                             database specifications indicates business-mailing data
                             such as mailers job numbers, presort level, mailers PERMIT
                             number, and number of pieces in the current mailing will be
                             stored by the system. However, the section of the business
                             impact assessment used to classify business data was left
                             blank.

                             This occurred because Postal Service management did not
                             realize they had not completed the business data section of
                             the business impact assessment. They stated it was an
                             oversight and they had held discussions regarding the
                             classification of the data. However, they did not document
                             their discussion; therefore, we could not validate that a
                             classification of the business data had occurred.

                             As a result, application developers relied upon incomplete
                             documentation, and could have designed security
                             requirements for the wrong level of sensitivity.

 Recommendation              We recommend the senior vice president, chief technology
                             officer, ensure:

                                2. The executive sponsor designates in writing, a
                                   representative as required by Handbook AS-805.

 Management’s                Management disagreed with recommendation 2 and the
 Comments                    related finding. Management stated that a letter sent in
                             May 2001, from the vice president of Information Platform,
                             designated the manager, Sales and Marketing Portfolio, the
                             executive sponsor. Management’s comments further stated
                             that this person was the business manager and responsible
                             for items referenced in 3-2-1 of AS-805.

 Evaluation of               Subsequent to our audit work, management provided
 Management’s                additional documentation to show that an executive sponsor
 Comments                    was appointed and project documentation was modified.

                             Management’s actions taken should correct the problem or
                             resolve the issues identified in this report.




                                             7
                                  Restricted Information
Team Enterprise Initiative                                                      EM-AR-02-014




 Recommendations             We recommend the senior vice president, chief technology
                             officer, ensure:

                                3. The executive sponsor, or their designated
                                   representative, completes the business impact
                                   assessment to determine the sensitivity level of the
                                   business data.

                                4. Program management determines the appropriate
                                   security requirements for the Entry Information
                                   System based upon the classification of business
                                   data and determine if these requirements have been
                                   met.

 Management’s                Management agreed with recommendations 3 and 4, and
 Comments                    reported they took corrective action in July and April 2002,
                             respectively.

 Evaluation of               In OIG’s opinion, management’s actions taken for
 Management’s                recommendations 3, and 4 should correct the problem or
 Comments                    resolve the issues identified in this report.




                                             8
                                  Restricted Information
Team Enterprise Initiative                                                        EM-AR-02-014




 System Development          Postal Service management did not always follow an
 Process                     approved system development life cycle methodology for the
                             Entry Information System.

                             Industry best practices recommend sound systems
                             development life cycle methodologies should be followed for
                             all application development efforts. Additionally, Handbook
                             AS-805, Information Security, requires an approved system
                             development life cycle methodology be followed for all
                             system development efforts.

                             For the Entry Information System, key personnel were not
                             always assigned to the project in writing, key deliverables
                             were not always produced, approvals of key deliverables
                             were not always documented, and version control of key
                             deliverables did not preserve the dates documents were
                             prepared and/or approved. For example, the information
                             system security representative was not appointed in writing
                             and the business needs statement, program definition
                             document, program charter, program plan, and risk
                             management plan were not produced. Additionally, there
                             was no documented evidence of formal approvals of the
                             business case document, and users requirements
                             document. Further, the business case analysis did not have
                             a fixed date for the document; instead, the date of the
                             document changed each time it was printed.

                             The system development process was not always followed
                             because program management was attempting to pilot the
                             draft integrated solutions methodology after the systems
                             development effort had begun. Additionally, program
                             management believed they could rely upon the contractor’s
                             proprietary methodology. However, a review of contractual
                             documents disclosed the contractor was not required to
                             produce all deliverables required in the integrated solutions
                             methodology.

                             Sound systems development processes are essential to
                             ensure systems in development will meet all requirements,
                             ensure participation by all stakeholders, and control costs.

 Audit Comment               Subsequent to the initiation of the Team Enterprise audit,
                             the integrated solutions methodology was completed and
                             the chief financial officer and chief technology officer, signed


                                             9
                                  Restricted Information
Team Enterprise Initiative                                                       EM-AR-02-014




                             a policy requiring the use of the integrated solutions
                             methodology. To allow development teams time to
                             implement this new policy, we are not making any
                             recommendations at this time.




                                            10
                                  Restricted Information
Team Enterprise Initiative                            EM-AR-02-014



                 APPENDIX. MANAGEMENT’S COMMENTS




                                       11
                             Restricted Information
Team Enterprise Initiative                            EM-AR-02-014




                                       12
                             Restricted Information
Team Enterprise Initiative                            EM-AR-02-014




                                       13
                             Restricted Information
Team Enterprise Initiative                            EM-AR-02-014




                                       14
                             Restricted Information
Team Enterprise Initiative                            EM-AR-02-014




                                       15
                             Restricted Information
Team Enterprise Initiative                            EM-AR-02-014




                                       16
                             Restricted Information
Team Enterprise Initiative                            EM-AR-02-014




                                       17
                             Restricted Information
